HHS/OIG Audit: "Audit of Title IV-E Foster Care Child-Care Claims at the North Carolina Department of Health and Human Services' Division of Child Development for the Period November 1, 1997 to March 31, 1999, (A-04-01-00002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Title IV-E Foster Care Child-Care Claims at the North Carolina Department of Health and Human Services'
Division of Child Development for the Period November 1, 1997 to March 31, 1999, (A-04-01-00002)"
November 19, 2001
Complete
Text of Report is available in PDF format (7.3 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This is the second of three reports being issued by the Office of Inspector General covering North Carolinas retroactive
claims for child care.  In this audit, our random sample of 200 IV-E child-care line items showed that 28 did not
meet the requirements for Federal financial participation (FFP).  As a result, the State was reimbursed $186,282 (FFP)
for unallowable IV-E child-care payments.  In our opinion, the unallowable payments were the result of the States
inadequate review of its consultants identification of children who were to be determined eligible for a specific
grant.  In addition, each grant had different requirements; yet, the States accounting system did not identify
which grant program was used to pay for a childs care.  Also, the claims did not have documentation to support
eligibility factors and the need for services.  We recommended that the State:  (1) refund the $186,282 (FFP)
overpayment; (2) develop accounting procedures that identify the grant used to pay for a childs care; (3) maintain
documentation to support eligibility for all child-care claims for required periods; and (4) monitor its consultant to
ensure that only allowable child-care claims are filed for FFP.  State officials generally disagreed with our findings
and recommendations.